No. ______
In the

Supreme Court of the United States
__________________

DANIEL CAMERON, ATTORNEY GENERAL, ON BEHALF OF
THE COMMONWEALTH OF KENTUCKY,
Petitioner,
v.
EMW WOMEN’S SURGICAL CENTER, P.S.C., ON BEHALF
OF ITSELF, ITS STAFF, AND ITS PATIENTS, ET AL.
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
OFFICE OF THE KENTUCKY
ATTORNEY GENERAL
700 Capitol Ave.
Suite 118
Frankfort, KY 40601
(502) 696-5300
Barry.Dunn@ky.gov

BARRY L. DUNN
Counsel of Record
Deputy Attorney General
VICTOR B. MADDOX
Assistant Deputy Attorney General
CARMINE G. IACCARINO
Assistant Attorney General
Counsel for Petitioner

October 30, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
Through more than two years of litigation, the
Secretary of Kentucky’s Cabinet for Health and Family
Services led the Commonwealth’s legal defense of its
law prohibiting abortions in which an unborn child is
dismembered while still alive. While this matter was
pending before the Sixth Circuit, the Secretary
retained lawyers from the Kentucky Attorney General’s
office to represent him. After the Sixth Circuit upheld
the permanent injunction against Kentucky’s law by a
divided vote, the Secretary decided not to appeal
further.
As allowed by Kentucky law, Attorney General
Daniel Cameron promptly filed a motion to intervene
to pick up the defense of Kentucky’s law where the
Secretary had left off. Over a dissent, the Sixth Circuit
refused to allow the Attorney General to defend
Kentucky law. The Attorney General, the majority
held, should have moved to intervene earlier, even
though his office had been representing the Secretary.
Five days later, this Court decided June Medical
Services, L.L.C. v. Russo, 140 S. Ct. 2103 (2020). The
Attorney General raised June Medical in a timely
petition for rehearing, arguing that it undercuts the
panel’s decision to invalidate Kentucky’s law. Again
over a dissent, the majority refused to allow the
Attorney General’s petition even to be filed.
The questions presented are:
Whether a state attorney general vested with the
power to defend state law should be permitted to
intervene after a federal court of appeals invalidates a

ii
state statute when no other state actor will defend the
law.
And if so, whether the Court should vacate the
judgment below and remand for further consideration
in light of June Medical.

iii
PARTIES TO THE PROCEEDING
The parties in the court below, respondents here,
are EMW Women’s Surgical Center, P.S.C., on behalf
of itself, its staff, and its patients; Ashlee Bergin, M.D.,
M.P.H., on behalf of herself and her patients; Tanya
Franklin, M.D., M.S.P.H., on behalf of herself and her
patients; and Eric Friedlander, in his official capacity
as Secretary of Kentucky’s Cabinet for Health and
Family Services.
Petitioner Daniel Cameron, Attorney General, on
behalf of the Commonwealth of Kentucky, sought to
intervene as a party before the Sixth Circuit.
STATEMENT OF RELATED PROCEEDINGS
No such proceedings exist.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . iii
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISION INVOLVED . . . . . . . . . 2
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 4
I. The Challenge to HB 454 . . . . . . . . . . . . . . . . . . . 4
II. The Attorney General’s Motion to Intervene. . . . 9
REASONS TO GRANT THE PETITION . . . . . . . . 11
I. The Sixth Circuit Prohibited a Sovereign State
from Fully Defending its Law . . . . . . . . . . . . . . 11
II. The Sixth Circuit Created a Circuit Split That
Undermines the Right of Each State to Ensure
its Laws Are Defended in Federal Court . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

v
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(June 2, 2020) . . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion Incorporating
Findings of Fact and Conclusions of Law
(May 10, 2019) . . . . . . . . . . . . . . App. 69
Appendix C Judgment and Permanent Injunction
in the United States District Court
Western District of Kentucky
Louisville Division
(May 10, 2019) . . . . . . . . . . . . . App. 104
Appendix D Order in the United States Court of
Appeals for the Sixth Circuit
(June 24, 2020) . . . . . . . . . . . . . App. 106
Appendix E Order in the United States Court of
Appeals for the Sixth Circuit
(July 16, 2020) . . . . . . . . . . . . . App. 130
Appendix F Mandate in the United States Court of
Appeals for the Sixth Circuit
(August 3, 2020) . . . . . . . . . . . . App. 133
Appendix G Ky. Rev. Stat. 311.787 . . . . . . . App. 135

vi
TABLE OF AUTHORITIES
Cases
Abbott v. Perez,
138 S. Ct. 2305 (2018). . . . . . . . . . . . . . . . . . . . . 12
Alden v. Maine,
527 U.S. 706 (1999). . . . . . . . . . . . . . . . . . . . . . . 11
Ariz. State Legislature v. Ariz. Indep. Redistricting
Comm’n, 576 U.S. 787 (2015) . . . . . . . . . . . . . . . 12
Associated Builders & Contractors, Saginaw Valley
Area Chapter v. Perry,
115 F.3d 386 (6th Cir. 1997). . . . . . . . . . . . . . . . 30
Bond v. United States,
564 U.S. 211 (2011). . . . . . . . . . . . . . . . . . . . . . . 12
Box v. Planned Parenthood of Ind. & Ky., Inc.,
__ S. Ct. __, 2020 WL 3578669 (July 2, 2020) . . 17
Box v. Planned Parenthood of Ind. & Ky., Inc.,
__ S. Ct. __, 2020 WL 3578672 (July 2, 2020) . . 17
City of Pontiac Retired Emps. Ass’n v. Schimmel,
726 F.3d 767 (6th Cir. 2013). . . . . . . . . . . . . . . . 30
City of Pontiac Retired Emps. Ass’n v. Schimmel,
751 F.3d 427 (6th Cir. 2014) (per curiam)
(en banc) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Commonwealth ex rel. Beshear v. Commonwealth
Office of Governor ex rel. Bevin,
498 S.W.3d 355 (Ky. 2016) . . . . . . . . . . . . . . . . . 14

vii
Commonwealth ex rel. Conway v. Thompson,
300 S.W.3d 152 (Ky. 2009) . . . . . . . . . . . . . . . . . 14
Commonwealth ex rel. Hancock v. Paxton,
516 S.W.2d 865 (Ky. 1974) . . . . . . . . . . . . . . . . . 14
Day v. Apoliona,
505 F.3d 963 (9th Cir. 2007). . . . . . . . . . . . passim
Democratic Nat’l Comm. v. Hobbs,
Case No. 18-15845 (9th Cir. 2020) . . . . . . . . . . . 24
Gonzales v. Carhart,
550 U.S. 124 (2007). . . . . . . . . . . . . . 4, 7, 8, 19, 20
Hollingsworth v. Perry,
570 U.S. 693 (2013). . . . . . . . . . . . . . . . . 12, 16, 22
Int’l Union, United Auto., Aerospace & Agric.
Implement Workers of Am., AFL-CIO,
Local 283 v. Scofield,
382 U.S. 205 (1965). . . . . . . . . . . . . . . . . . . . . 1, 22
June Med. Servs., L.L.C. v. Russo,
140 S. Ct. 2103 (2020). . . . . . . . . . . . . . . . . passim
Lawrence on behalf of Lawrence v. Chater,
516 U.S. 163 (1996) (per curiam) . . . . . . . . . . . . 18
Maine v. Taylor,
477 U.S. 131 (1986). . . . . . . . . . . . . . . . . . . . . . . 12
Maryland v. King,
133 S. Ct. 1 (2012). . . . . . . . . . . . . . . . . . . . . 12, 26
N.E. Ohio Coal. for Homeless & Serv. Emps. Int’l
Union, Local 1119 v. Blackwell,
467 F.3d 999 (6th Cir. 2006). . . . . . . . . . . . . . . . 30

viii
New Motor Vehicle Bd. of Cal. v. Orrin W. Fox Co.,
434 U.S. 1345 (1977). . . . . . . . . . . . . . . . . . . 12, 26
Overstreet v. Mayberry,
603 S.W.3d 244 (Ky. 2020) . . . . . . . . . . . . . . . . 14
Peruta v. Cty. of San Diego,
824 F.3d 919 (9th Cir. 2016) (en banc) . . . passim
Planned Parenthood of Ind. & Ky., Inc. v. Adams,
937 F.3d 973 (7th Cir. 2019). . . . . . . . . . . . . . . . 17
Planned Parenthood of Ind. & Ky., Inc. v. Comm’r
of Ind. State Dep’t of Health,
896 F.3d 809 (7th Cir. 2018). . . . . . . . . . . . . 17, 18
Printz v. United States,
521 U.S. 898 (1997). . . . . . . . . . . . . . . . . . . . . . . 11
Stenberg v. Carhart,
530 U.S. 914 (2000). . . . . . . . . . . . . . . . . . . . . . 4, 7
United Airlines, Inc. v. McDonald,
432 U.S. 385 (1977). . . . . . . . . . . . . . . . . 22, 27, 29
Va. House of Delegates v. Bethune-Hill,
139 S. Ct. 1945 (2019). . . . . . . . . . . . . . . . . passim
Whole Woman’s Health v. Hellerstedt,
136 S. Ct. 2292 (2016). . . . . . . . . . . 7, 8, 17, 18, 20
Statutes
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
28 U.S.C. § 1343 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

ix
28 U.S.C. § 2106 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Ky. Rev. Stat. 15.020 . . . . . . . . . . . . . . . . . . . 2, 13, 16
Ky. Rev. Stat. 15.090 . . . . . . . . . . . . . . . . . . . 2, 14, 16
Ky. Rev. Stat. 311.787 . . . . . . . . . . . . . . . . . . . . . . . . 2
Ky. Rev. Stat. 311.787(1) . . . . . . . . . . . . . . . . . . . . . . 5
Ky. Rev. Stat. 311.787(2) . . . . . . . . . . . . . . . . . . . . . . 5
Ky. Rev. Stat. 418.075 . . . . . . . . . . . . . . . . . . . . . 2, 14
Rules
Fed. R. Civ. P. 24(a) . . . . . . . . . . . . . . . . . . . . . . . . . 22
Fed. R. Civ. P. 24(b) . . . . . . . . . . . . . . . . . . . . . . . . . 22
S. Ct. R. 10(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Other Authorities
The Federalist No. 39 (J. Madison) . . . . . . . . . . . . . 11
Pub. L. No. 86-3, 73 Stat. 4 (1959) . . . . . . . . . . . . . 23

1
PETITION FOR WRIT OF CERTIORARI
Daniel Cameron, Attorney General, on behalf of the
Commonwealth of Kentucky, respectfully petitions for
a writ of certiorari to review the judgment of the
United States Court of Appeals for the Sixth Circuit.
OPINIONS BELOW
The Sixth Circuit’s decision denying the Attorney
General’s motion to intervene is unreported.
App.106–29. The Sixth Circuit’s decision refusing to
accept for filing the Attorney General’s tendered
petition for rehearing is unreported. App.130–32. The
Sixth Circuit’s decision affirming the district court’s
permanent injunction is reported at 960 F.3d 785.
App.1–68. The district court’s decision entering a
permanent injunction is reported at 373 F. Supp. 3d
807. App.69–103.
JURISDICTION
The Sixth Circuit denied the Attorney General’s
motion to intervene on June 24, 2020, and refused to
file the Attorney General’s tendered petition for
rehearing on July 16, 2020. The Sixth Circuit affirmed
the district court’s judgment on June 2, 2020. This
Court has jurisdiction under 28 U.S.C. § 1254(1) and 28
U.S.C. § 2106. See Int’l Union, United Auto., Aerospace
& Agric. Implement Workers of Am., AFL-CIO, Local
283 v. Scofield, 382 U.S. 205, 208 (1965).

2
STATUTORY PROVISION INVOLVED
The Kentucky statute at issue here, codified in
relevant part at Ky. Rev. Stat. 311.787, is reproduced
in the appendix. App.135–36.
INTRODUCTION
This case began as a challenge to a Kentucky
statute regulating abortion, but it is now a dispute
about a State’s authority to ensure that its laws are
fully defended through this Court. In our dualsovereign system of government, the States have a
substantial interest in enforcing their laws. In
recognition of this fact, the States get to decide for
themselves who defends their laws in court. Va. House
of Delegates v. Bethune-Hill, 139 S. Ct. 1945, 1951–52
(2019). Under Kentucky law, Attorney General Daniel
Cameron has not only the power, but also the duty, to
defend Kentucky’s laws against legal challenge. See Ky.
Rev. Stat. 15.020; Ky. Rev. Stat. 418.075. And when
another state official declines to appeal an adverse
ruling, Kentucky law empowers the Attorney General
to step in and continue defending state law on appeal.
See Ky. Rev. Stat. 15.090.
In the decision below, however, the Sixth Circuit
barred the Attorney General from doing what state law
requires of him. This cannot be justified under any
circumstance, but it is especially intolerable here. Had
the Attorney General’s motion to intervene been
granted, this case would not be over. This Court almost
certainly would have granted certiorari, vacated the
judgment below, and remanded for further proceedings
(GVR) in light of June Medical Services, L.L.C. v.

3
Russo, 140 S. Ct. 2103 (2020). This Court decided June
Medical five days after the Sixth Circuit refused to
allow the Attorney General to intervene. And in the
time since, the Court has granted GVRs in two similar
cases, both of which the Sixth Circuit relied upon in its
merits decision. It is difficult to imagine a better GVR
candidate than this case.
In fact, in the short time since the Sixth Circuit
invalidated Kentucky’s statute, another panel of the
court has interpreted June Medical in a way that raises
serious questions about the decision below. See EMW
Women’s Surgical Ctr., P.S.C. v. Friedlander,
__ F.3d __, 2020 WL 6111008, at *14–*20 (6th Cir. Oct.
16, 2020). Yet, because the panel denied the Attorney
General’s motion to intervene, he cannot press these
arguments.
In denying the Attorney General’s motion, the Sixth
Circuit also created a circuit split. In fact, in one of the
cases the Court will hear this term, the Ninth Circuit
allowed Arizona, represented by its attorney general, to
intervene at a later stage than the Attorney General
moved to intervene here—after the en banc court
issued its ruling. Brnovich v. Democratic National
Committee, 19-1257. And on two other occasions, the
Ninth Circuit has granted a State’s motion to intervene
after the panel issued its decision. Peruta v. Cty. of San
Diego, 824 F.3d 919, 940–41 (9th Cir. 2016) (en banc);
Day v. Apoliona, 505 F.3d 963, 964–66 (9th Cir. 2007).
In both of these cases, the Ninth Circuit recognized
that a State’s unique interests justify allowing the
State to intervene even after a panel opinion.

4
The Court should grant certiorari, allow the
Attorney General to intervene, and vacate and remand
the judgment below for further consideration in light of
June Medical.
STATEMENT OF THE CASE
At this point, this case concerns whether Kentucky’s
Attorney General should be permitted to intervene on
behalf of the Commonwealth so that he can defend
Kentucky law. But the importance of this dispute can
only be appreciated by understanding the nature of the
underlying litigation.
I. The Challenge to HB 454.
The Kentucky General Assembly passed House Bill
454 in March 2018, and Kentucky’s Governor signed it
into law. HB 454 regulates the abortion procedure
known as dilation and evacuation, or D&E for short. A
D&E abortion is a singularly gruesome procedure. It
entails using “grasping forceps” to “tear apart” an
unborn child. See Gonzales v. Carhart, 550 U.S. 124,
135 (2007). The result: “The fetus, in many cases, dies
just as a human adult or child would: It bleeds to death
as it is torn limb from limb.” Stenberg v. Carhart, 530
U.S. 914, 958–59 (2000) (Kennedy, J., dissenting). This
Court has accordingly recognized that “[n]o one would
dispute that, for many, D & E is a procedure itself
laden with the power to devalue human life.” Gonzales,
550 U.S. at 158.
Count the Commonwealth of Kentucky among the
many. HB 454 thus prohibits an abortion provider from
intentionally performing, or attempting to perform, an

5
abortion beginning at 13 weeks LMP1 that “will result
in the bodily dismemberment, crushing, or human
vivisection” of a living unborn child. Ky. Rev. Stat.
311.787(1)–(2). Put more directly, HB 454 bars an
abortion provider from dismembering an unborn child
while the child is still alive. See id.
To be clear, HB 454 does not ban D&E abortions. It
simply prohibits performing the D&E procedure on a
living unborn child. See id. Under HB 454, D&E
abortions can continue, but an unborn child must die
before he or she is dismembered. In this simple way,
HB 454 extends compassion to unborn children, thus
demonstrating the Commonwealth’s profound respect
for life. HB 454 also protects the integrity of the
medical profession by modifying an otherwise grisly
procedure that would be unthinkable in any other part
of the profession.
EMW Women’s Surgical Center, P.S.C. and two of
its doctors (together, EMW) sued under 28 U.S.C.
§§ 1331 and 1343 to invalidate HB 454. EMW named
various state officials as defendants, including
Kentucky’s Attorney General and the Secretary of
Kentucky’s Cabinet for Health and Family Services,
both in their official capacities. D.Ct.Dkt. 1. At the
time, Kentucky’s Attorney General was Andy Beshear.
Shortly after being sued, Attorney General Beshear
and EMW agreed to a “Stipulation and Order of
Dismissal Upon Conditions,” which dismissed the
Attorney General without prejudice. D.Ct.Dkt. 51 at 1.

1

All references to the age of a pregnancy are stated in terms of
weeks from the last menstrual period, or LMP.

6
Attorney General Beshear agreed to be bound by the
judgment in this case, but reserved “all rights, claims,
and defenses that may be available to him.” Id. at 1–2.
The Secretary then led the Commonwealth’s
defense of HB 454 during a five-day bench trial, in
which more than a dozen experts testified. At trial, the
Secretary’s proof focused on two broad topics.
First, the Secretary demonstrated how HB 454
respects unborn life and protects the integrity of the
medical profession. One doctor testified to witnessing
a D&E abortion in which a doctor “pulled out a spine
and some mangled ribs and the heart was actually still
beating.” D.Ct.Dkt. 103 at 14. Another doctor explained
that, at the point in pregnancy when HB 454 takes
effect, an unborn child is a “little human,” with moving
arms and legs, a beating heart, and organs. D.Ct.Dkt.
102 at 141–43. The Secretary also provided testimony
from a neonatologist at Northwestern University, who
explained that an unborn child definitely can feel pain
by 22 weeks LMP and possibly can feel pain by 15
weeks LMP. D.Ct.Dkt. 103 at 139, 150–55.
Second, the Secretary presented expert testimony
about the three primary ways that EMW can cause
fetal death before a D&E abortion so as to comply with
HB 454. EMW can cause the child’s death by:
• Using a needle to inject a substance known as
digoxin into either the amniotic fluid or the
unborn child;
• Using a needle to inject potassium chloride into
the unborn child’s heart, chest, or umbilical
cord; or

7
• Cutting the unborn child’s umbilical cord.
E.g., D.Ct.Dkt.102 at 40–85; D.Ct.Dkt.103 at 17–48.
This Court has recognized two of these techniques.
Two decades ago, the Court noted that “[s]ome
physicians used intrafetal potassium chloride or
digoxin to induce fetal demise prior to a late D & E
(after 20 weeks), to facilitate evacuation.” Stenberg, 530
U.S. at 925 (citation omitted). And in Gonzales, the
Court again acknowledged, referring to digoxin and
potassium-chloride injections, that “[s]ome doctors,
especially later in the second trimester, may kill the
fetus a day or two before performing” a D&E. Gonzales,
550 U.S. at 136.
The district court nevertheless invalidated HB 454
on its face by applying a balancing test purportedly
required by Whole Woman’s Health v. Hellerstedt, 136
S. Ct. 2292 (2016). App.76–77.
The Secretary appealed. Shortly after briefing
concluded in the Sixth Circuit, Kentucky held its
general elections for statewide officers. Kentuckians
elected then-Attorney General Beshear as their
Governor and Daniel Cameron as their Attorney
General. The day before Attorney General Cameron
was sworn in, the Sixth Circuit scheduled oral
argument in this matter. The new Secretary, who
Governor Beshear had recently appointed, retained
lawyers in the Attorney General’s office to handle oral
argument. 6thCir.Dkt. 41, 45–48. Thus, the new
Secretary decided to soldier on in this matter.
The Sixth Circuit affirmed the district court’s
judgment by a divided vote. The court did so “by

8
weighing ‘the burdens a law imposes on abortion access
together with the benefits those laws confer.’” App.14
(quoting Hellerstedt, 136 S. Ct. at 2309). This balancing
of interests pervades the opinion: Part I.A of the
opinion is labeled “Burdens,” Part I.B is “Benefits,” and
Part I.C. is “Balancing.” App.18–42.
The panel rejected the Secretary’s argument that it
should follow Gonzales’s holding that “state and federal
legislatures [have] wide discretion to pass legislation in
areas where there is medical and scientific
uncertainty.” See Gonzales, 550 U.S. at 163. The panel
concluded that Hellerstedt “clarified” this holding and
thus refused to defer to the Kentucky General
Assembly. App.17.
The Sixth Circuit also turned away the Secretary’s
argument that EMW must make a good-faith effort to
comply with HB 454 before it can be invalidated. In
this respect, the Secretary pointed out that EMW had
undertaken no effort to perform any of the three
techniques allowed by HB 454. The panel saw no
problem with this. App.34–35.
Judge Bush dissented on the basis that EMW lacks
third-party standing. App.50–68 (Bush, J., dissenting).
He emphasized that “for whatever reason—be it
financial, litigation strategy, or otherwise—EMW’s
physicians have refused to obtain the necessary
training to perform fetal demise, even though
uncontroverted studies presented at trial show that
many, and perhaps a substantial majority, of women
would choose fetal demise before undergoing a D&E
procedure.” App.51. Judge Bush also criticized the

9
panel’s issuance of its opinion without waiting for this
Court’s decision in June Medical. App.66–68.
II. The Attorney General’s Motion to Intervene.
Shortly after the Sixth Circuit’s decision, the
Secretary informed the Attorney General’s office that
he would not file a petition for rehearing or a petition
for a writ of certiorari. 6thCir.Dkt. 56 at 1. The
Secretary, however, stated that he would not oppose
the Attorney General intervening in the litigation on
behalf of the Commonwealth. Id.
Within two days of learning that the Secretary
would not continue defending HB 454, the Attorney
General moved to intervene on behalf of the
Commonwealth. In so doing, the Attorney General
simply sought to press on with the Commonwealth’s
legal defense of HB 454 through the rehearing stage
and through this Court. True to his word, the Secretary
did not oppose the Attorney General’s motion to
intervene. But EMW did. The Attorney General also
tendered a timely petition for rehearing from the
panel’s decision. 6thCir.Dkt. 60. In this respect, the
Attorney General did nothing more than attempt to
exhaust the already-existing appellate remedies
available to the State.
The panel, again by a divided vote, denied the
Attorney General’s motion to intervene. App.107. The
panel emphasized that the Attorney General’s motion
“comes years into [the case’s] progress, after both the
district court’s decision and—more critically—this
Court’s decision.” App.110. While recognizing that the
Attorney General’s office previously represented the

10
Secretary, the Court criticized the Attorney General for
not moving to intervene earlier. According to the panel,
“there was every reason for the Attorney General’s
office to inquire into and prepare for the Secretary’s
intended course in the event of an adverse decision
prior to undertaking his representation of the
Secretary.” App.112.
Judge Bush penned his second dissent, concluding
that the majority’s decision “flies in the face of our
precedent allowing states’ attorneys general to
intervene on appeal in order to defend their states’
laws.” App.116 (Bush, J., dissenting). As Judge Bush
explained, “[t]he Attorney General is the same counsel
who represented Secretary Friedlander in this appeal,
and Secretary Friedlander does not oppose the
substitution of the Attorney General to represent the
Commonwealth’s interests.” Id. Judge Bush also noted
what the majority’s ruling meant in light of this Court’s
impending decision in June Medical: “Without anyone
in court to defend H.B. 454, [EMW’s] challenge to that
law will succeed, even if our ruling in this case proves
to be directly contrary to the Supreme Court’s holding
in June Medical.” App.117.
Five days later, this Court decided June Medical.
The Attorney General tendered a timely petition for
rehearing from the panel’s denial of his motion to
intervene, alerting the panel to this Court’s decision in
June Medical. 6thCir.Dkt. 64. The panel, however,
refused to allow the Attorney General’s rehearing
petition even to be filed and circulated to the en banc
court. App.131. This prompted Judge Bush’s third
dissent. App.131–32 (Bush, J., dissenting).

11
This petition for certiorari follows.
REASONS TO GRANT THE PETITION
The Court should grant certiorari because of the
important sovereign interests at stake and because of
the split of authority about whether a state attorney
general is entitled to intervene after a federal court of
appeals issues its decision.
I. The Sixth Circuit Prohibited a Sovereign
State from Fully Defending its Law.
The panel’s refusal to allow Kentucky’s Attorney
General to defend the constitutionality of Kentucky
law is an affront to state sovereignty. The Sixth
Circuit closed the courthouse doors to the very person
that Kentucky law empowers to represent the
Commonwealth’s interests in court. Still worse, the
panel stuck to this holding even after June Medical
undercut its rationale for invalidating HB 454.
A. Under our dual-sovereign system of government,
the States retain “a residuary and inviolable
sovereignty.” Printz v. United States, 521 U.S. 898,
918–19 (1997) (quoting The Federalist No. 39, at 245
(J. Madison)). “Although the Constitution begins with
the principle that sovereignty rests with the people, it
does not follow that the National Government becomes
the ultimate, preferred mechanism for expressing the
people’s will. The States exist as a refutation of that
concept.” Alden v. Maine, 527 U.S. 706, 759 (1999).
Dividing power between two sovereigns promotes
liberty. Id. at 758.

12
A core part of the States’ retained sovereignty is
enforcing their own laws, subject of course to the limits
set by the Constitution. This has many virtues. It
“allows local policies more sensitive to the diverse
needs of a heterogeneous society, permits innovation
and experimentation, enables greater citizen
involvement in democratic processes, and makes
government more responsive by putting States in
competition for a mobile citizenry.” See Ariz. State
Legislature v. Ariz. Indep. Redistricting Comm’n, 576
U.S. 787, 817 (2015) (cleaned up) (quoting Bond v.
United States, 564 U.S. 211, 221 (2011)).
For these reasons, a State “clearly has a legitimate
interest in the continued enforceability of its own
statutes.” Maine v. Taylor, 477 U.S. 131, 137 (1986).
“No one doubts” this. Hollingsworth v. Perry, 570 U.S.
693, 709–10 (2013). This interest is so substantial that
“[a]ny time a State is enjoined by a court from
effectuating statutes enacted by representatives of its
people, it suffers a form of irreparable injury.” See
Maryland v. King, 133 S. Ct. 1, 3 (2012) (Roberts, C.J.,
in chambers) (quoting New Motor Vehicle Bd. of Cal. v.
Orrin W. Fox Co., 434 U.S. 1345, 1351 (1977)
(Rehnquist, J., in chambers)); see also Abbott v. Perez,
138 S. Ct. 2305, 2324 n.17 (2018).
Inherent in the States’ power to enforce their laws
is the power to choose who defends those laws when
they are challenged in court. Hollingsworth, 570 U.S.
at 710 (“[A] State must be able to designate agents to
represent it in federal court.”). It follows that federal
courts must not only respect, but also abide by, a
State’s decision about who represents its interests in

13
court. See id. Although state laws vary, most States
have tapped their attorney general for this job. Id.
(“That agent is typically the State’s attorney general.”).
This Court’s recent decision in Virginia House of
Delegates v. Bethune-Hill, 139 S. Ct. 1945 (2019),
demonstrates the States’ latitude in this regard. There,
after the district court invalidated Virginia’s
redistricting scheme, Virginia’s Attorney General
decided not to appeal because, in his view, it “would not
be in the best interest of the Commonwealth or its
citizens.” Id. at 1950. Virginia’s House of Delegates
nevertheless sought to appeal. Id.
The Court recognized that “if the State had
designated the House to represent its interests, and if
the House had in fact carried out that mission, we
would agree that the House could stand in for the
State.” Id. at 1951. This, however, had not occurred.
Under Virginia law, Virginia had “chosen to speak as
a sovereign entity with a single voice”—through its
Attorney General. Id. at 1951–52. This choice, the
Court emphasized, “belongs to Virginia.” Id. at 1952.
And because Virginia’s chosen agent had decided not to
appeal, the Court dismissed the House’s appeal for lack
of jurisdiction. Id. at 1956. Thus, state law defines who
gets to speak in federal court on behalf of the State.
B. So what does Kentucky law say about Attorney
General Cameron’s right to represent the State when
its laws are challenged? As it turns out, a lot. Under
Kentucky law, the Attorney General is “the chief law
officer of the Commonwealth of Kentucky and all of its
departments, commissions, agencies, and political
subdivisions.” Ky. Rev. Stat. 15.020. This isn’t just a

14
title. Under state law, the Attorney General
“shall . . . enter his appearance in all cases . . . and
attend to all litigation . . . in which the Commonwealth
has an interest.” Id.; see also Ky. Rev. Stat. 418.075.
And the Attorney General gets to decide when the
Commonwealth has an interest in a case that warrants
his participation. Overstreet v. Mayberry, 603 S.W.3d
244, 265 & n.98 (Ky. 2020).
The Supreme Court of Kentucky has accordingly
recognized the Attorney General’s “broad powers to
initiate and defend actions on behalf of the people of
the Commonwealth.” Commonwealth ex rel. Conway v.
Thompson, 300 S.W.3d 152, 173 (Ky. 2009). “There is
no question,” Kentucky’s highest court has emphasized,
“as to the right of the Attorney General to appear and
be heard in a suit brought by someone else in which the
constitutionality of a statute is involved.”
Commonwealth ex rel. Hancock v. Paxton, 516 S.W.2d
865, 868 (Ky. 1974); see also Commonwealth ex rel.
Beshear v. Commonwealth Office of Governor ex rel.
Bevin, 498 S.W.3d 355, 361–66 (Ky. 2016) (discussing
the Attorney General’s common-law powers).
Importantly, Kentucky law also grants the Attorney
General broad powers to take an appeal from a decision
that affects the Commonwealth. Under Ky. Rev. Stat.
15.090, “[t]he Attorney General may prosecute an
appeal, without security, in any case from which an
appeal will lie whenever, in his judgment, the interest
of the Commonwealth demands it.” This means that if
another state actor declines to appeal an adverse
ruling, the Attorney General can override that decision
by appealing on his own. See id. More to the point, this

15
statute provides that the Attorney General is the final
decision-maker about whether to appeal a decision
invalidating Kentucky law. See id.
So to summarize: Kentucky law makes the Attorney
General the lawyer for the people of Kentucky with the
power and the duty to represent the Commonwealth’s
interests in court as he sees fit. Important for present
purposes, this includes deciding for the Commonwealth
whether to continue defending its laws on appeal.
C. The Sixth Circuit disregarded the
Commonwealth’s sovereign decision to vest Attorney
General Cameron with this power. Instead, the panel
relied on the alleged untimeliness of the Attorney
General’s motion to intervene. App.109–15. The court’s
timeliness holding is not only wrong, but it created a
circuit split, as described in Part II. More
fundamentally, though, the Sixth Circuit minimized to
irrelevance Kentucky’s sovereign authority to decide
for itself who defends its laws in court.
After reading the panel’s decision denying the
Attorney General’s motion, one is justified in thinking
that this case simply is a routine denial of a late-filed
motion to intervene. The Sixth Circuit blandly noted
that it “rarely grant[s] motions to intervene filed on
appeal” and concluded that a motion filed after a
panel’s decision is “even more disfavored.” App.110
(citation omitted). And the panel refused to decide
whether the Attorney General “has a substantial legal
interest in the subject matter of this case.” App.115 n.4.
The panel’s decision thus contains no discussion of the
sovereign interests at stake.

16
This approach ignores the significance of the
Attorney General’s motion. When the Attorney General
moved to intervene, he did not come to the court as an
ordinary litigant. Instead, he brought to bear
Kentucky’s powers as delegated to him by its General
Assembly through Ky. Rev. Stat. 15.020 and Ky. Rev.
Stat. 15.090. Put more directly, the Attorney General’s
motion to intervene was not just a motion; it was an
exercise of a sovereign state’s authority to defend its
laws.
This case thus presents the opposite situation to
that in Bethune-Hill. There, the state actor trying to
defend state law lacked the power to do so, while the
party with that power declined to appeal. See BethuneHill, 139 S. Ct. 1950–52. Here, by contrast, the Sixth
Circuit turned away the Commonwealth’s “chief law
officer,” who has the power to defend Kentucky’s laws
in this very situation. If federal courts must respect the
decision of a State’s chosen agent not to appeal an
adverse ruling, as Bethune-Hill holds, the courts also
must abide by the decision to exhaust all appellate
remedies if the decision is made by the appropriate
State official. Bethune-Hill instructs that “a State must
be able to designate agents to represent it in federal
court.” Id. at 1951 (emphasis added) (quoting
Hollingsworth, 570 U.S. at 710). That guarantee proved
empty here.
The resulting injury to the Commonwealth’s
sovereign interests is substantial. The Commonwealth
is unable to enforce HB 454 not because it ultimately
lost after exhausting all available appeals, but because
a federal court said it couldn’t appeal any further. This,

17
Judge Bush recognized, “is a plaintiff’s dream case:
what if every litigant who successfully challenged the
constitutionality of a state law could bar the state
attorney general from seeking complete appellate
review?” App.117 (Bush, J., dissenting).
D. The underlying legal dispute underscores the
necessity of allowing Attorney General Cameron to
push forward in defending HB 454. After June Medical,
the panel’s rationale for invalidating HB 454 no longer
holds. Only a few months’ time has proven true Judge
Bush’s prediction that “[w]ithout anyone in court to
defend H.B. 454, [EMW’s] challenge to that law will
succeed, even if our ruling in this case proves to be
directly contrary to the Supreme Court’s holding in
June Medical.” Id.
June Medical came five days after the Sixth Circuit
denied the Attorney General’s motion to intervene. If
the panel had permitted the Attorney General to
intervene, there is little doubt that he eventually would
have secured, at the very least, a GVR from this Court
in light of June Medical. Shortly after June Medical,
this Court granted GVRs in two cases that, like the
decision below, applied Hellerstedt’s purported
balancing test. Box v. Planned Parenthood of Ind. &
Ky., Inc., __ S. Ct. __, 2020 WL 3578669 (July 2, 2020);
Box v. Planned Parenthood of Ind. & Ky., Inc., __ S. Ct.
__, 2020 WL 3578672 (July 2, 2020). The panel below
relied on both of those now-vacated decisions in
deciding that HB 454 is unconstitutional. App.15–16
(citing Planned Parenthood of Ind. & Ky., Inc. v.
Adams, 937 F.3d 973 (7th Cir. 2019); Planned
Parenthood of Ind. & Ky., Inc. v. Comm’r of Ind. State

18
Dep’t of Health, 896 F.3d 809 (7th Cir. 2018)). Thus,
this case almost certainly would not be over but for the
panel’s denial of the Attorney General’s motion to
intervene. See Lawrence on behalf of Lawrence v.
Chater, 516 U.S. 163, 166–68 (1996) (per curiam)
(discussing the use of GVRs).
If the Attorney General were able to secure a GVR
from this Court, the legal landscape upon returning to
the Sixth Circuit would look very different. Two weeks
ago, in an appeal concerning another of Kentucky’s
abortion statutes, the Sixth Circuit concluded that the
Chief Justice’s concurring opinion in June Medical
controls.2 EMW Women’s Surgical Ctr., P.S.C. v.
Friedlander, __ F.3d __, 2020 WL 6111008, at *10 (6th
Cir. Oct. 16, 2020).
In light of this intervening development, there can
be no question that the panel’s decision invalidating
HB 454 is no longer good law in the Sixth Circuit in at
least three respects.
First, the panel applied the purported balancing test
from Hellerstedt. This conclusion is inescapable. The
panel “answer[ed] th[e] question” whether an undue
burden exists by “weighing ‘the burdens a law imposes
on abortion access together with the benefits those laws
confer.’” App.14 (quoting Hellerstedt, 136 S. Ct. at
2309). In so doing, the panel expressly rejected the
Secretary’s argument that “it is the legislature’s
2

As discussed below, in this other case, the Sixth Circuit granted
Attorney General Cameron’s motion to intervene even though it
came nearly a year after oral argument. See Friedlander, 2020 WL
6111008, at *5.

19
place—and not the courts’—to assess whether the
Commonwealth’s interest justifies regulating abortion.”
App.15.
This is irreconcilable with the Chief Justice’s
opinion in June Medical. The Chief Justice explained
that “[t]here is no plausible sense in which anyone, let
alone this Court, could objectively assign weight to
such imponderable values and no meaningful way to
compare them if there were.” June Medical, 140 S. Ct.
at 2136 (Roberts, C.J., concurring in the judgment).
Such weighing, the Chief Justice reasoned, “would
require us to act as legislators, not judges.” Id. As a
result, the Chief Justice concluded that, under the
undue-burden test, “benefits [are] not placed on a scale
opposite the law’s burdens.” See id. at 2138.
Consequently, the panel majority’s embrace of a
balancing test can no longer be justified. See
Friedlander, 2020 WL 6111008, at *14 (rejecting a
balancing test in light of June Medical).
Second, the Sixth Circuit rejected the Secretary’s
argument that the court should apply Gonzales’s
holding that “state and federal legislatures [have] wide
discretion to pass legislation in areas where there is
medical and scientific uncertainty.” Gonzales, 550 U.S.
at 163. This aspect of Gonzales matters greatly to this
appeal—in fact, it is dispositive—in light of the
extensive expert testimony that the Secretary offered
about, for example: (i) the feasibility of the three fetaldeath techniques that enable EMW to comply with HB
454; and (ii) the likelihood of an unborn child feeling
pain. At a minimum, the Secretary’s proof on these
topics readily creates “medical and scientific

20
uncertainty” under Gonzales sufficient for HB 454 to
survive EMW’s facial challenge. See id.
The panel nevertheless concluded that Hellerstedt
“clarified” Gonzales’s holding and therefore refused to
apply it. App.17. The Chief Justice’s concurrence,
however, refutes this conclusion. Quoting Gonzales, the
Chief Justice reiterated the “traditional rule” that
“state and federal legislatures have wide discretion to
pass legislation in areas where there is medical and
scientific uncertainty.” June Medical, 140 S. Ct. at
2136 (Roberts, C.J., concurring in the judgment)
(citation omitted). Consequently, in this respect as
well, the Sixth Circuit’s rationale for invalidating HB
454 cannot be squared with the Chief Justice’s June
Medical opinion. See Friedlander, 2020 WL 6111008, at
*14 (applying Gonzales’s uncertainty holding in light of
the Chief Justice’s opinion).
Third, the Sixth Circuit refused to require EMW to
undertake a good-faith effort to comply with HB 454.
“[F]or whatever reason—be it financial, litigation
strategy, or otherwise—EMW’s physicians have refused
to obtain the necessary training to perform fetal
demise . . . .” App.51 (Bush, J., dissenting). The panel,
however, blessed EMW’s refusal to make a good-faith
effort to utilize one of the three-fetal demise
techniques, concluding that “Supreme Court precedent
does not support such a requirement.” App.34.
But Chief Justice Roberts’s opinion in June Medical
says otherwise. He noted that the district court
“[i]mportantly” found that the abortion providers “have
attempted in good faith to comply with the law by
applying for admitting privileges, yet have had very

21
little success.” June Medical, 140 S. Ct. at 2141
(Roberts, C.J., concurring in the judgment) (cleaned
up). “This finding,” the Chief Justice emphasized, “was
necessary to ensure that the physicians’ inability to
obtain admitting privileges was attributable to the new
law rather than a halfhearted attempt to obtain
privileges.” Id. This conclusion cannot coexist with the
panel’s holding below. See Friedlander, 2020 WL
6111008, at *19–*20 (applying the Chief Justice’s goodfaith holding).
*

*

*

In sum, the Sixth Circuit’s decision to sideline the
Attorney General harms the Commonwealth’s
sovereign interests by prematurely ending this
constitutional challenge to Kentucky law. This more
than warrants review by this Court.
II. The Sixth Circuit Created a Circuit Split That
Undermines the Right of Each State to Ensure
its Laws Are Defended in Federal Court.
The panel majority’s decision created a circuit split
with profound implications. Until now, the only courts
addressing the unique nature of a State intervening to
defend its sovereignty have recognized the compelling
need to liberally allow such intervention. The Ninth
Circuit, in particular, has adopted a strong rule
favoring state intervention, but the decision below
departed from that line of cases. In doing so, it created
a circuit split as to how federal courts should analyze
a State’s sovereign interest in ensuring that its laws
receive a full defense in the face of a constitutional

22
challenge. This Court should grant certiorari to resolve
this split. See S. Ct. R. 10(a).
A. In the trial courts, parties seeking to intervene
must comply with Rule 24. See Fed. R. Civ. P. 24(a),
(b). Strictly speaking, however, Rule 24 applies “only in
the federal district courts.” Scofield, 382 U.S. at 217
n.10. Thus, while this Court has recognized that “the
policies underlying intervention [under Rule 24] may
be applicable in appellate courts” as well, id., the Court
has not yet established many clear rules about when
appellate intervention is appropriate or permissible.
Moreover, the Court has never addressed how the
“policies underlying intervention” during an appeal, id.,
interact with each State’s right to “designate agents to
represent it in federal court,” Bethune-Hill, 139 S. Ct.
at 1951 (quoting Hollingsworth, 570 U.S. at 710). There
is no doubt that “post-judgment intervention for the
purpose of appeal” is proper so long as the intervenor,
“in view of all the circumstances, . . . acted promptly.”
United Airlines, Inc. v. McDonald, 432 U.S. 385,
395–96 (1977). And ordinarily that means a non-party
may intervene even after a final judgment so long as he
or she does so “as soon as it [becomes] clear . . . that
[his or her interest] . . . would no longer be protected
by” the parties in the case. Id. at 394. But when the
non-party is a State and the interest it seeks to protect
is a core part of its sovereignty, how must federal
courts treat such requests for late-stage intervention?
The Ninth Circuit and Sixth Circuit have now split on
this important question.
B. The Ninth Circuit has adopted a strong rule in
favor of allowing States to intervene when a change in

23
circumstances leaves the State with no one “that can
fully represent its interests.” Peruta v. Cty. of San
Diego, 824 F.3d 919, 941 (9th Cir. 2016) (en banc). In
Peruta, the State of California found itself in a difficult
position when the Court of Appeals issued a decision
that “would have substantially impaired [its] ability to
regulate firearms,” but the county official defending the
litigation announced he would no longer do so. Id. at
940. California moved to intervene. And even though it
did so “at a relatively late stage in the proceeding”
(after the panel’s opinion), id., the en banc Ninth
Circuit allowed California to intervene “to fill the void
created by the late and unexpected departure” of the
county official previously defending the suit, id. at 941.
Peruta built on the Ninth Circuit’s prior decision in
Day v. Apoliona, 505 F.3d 963 (9th Cir. 2007), a
Section 1983 case with far-reaching implications about
how to interpret the Hawaiian Admission Act. See Pub.
L. No. 86-3, 73 Stat. 4 (1959). The State of Hawaii
participated in the case only as an amicus curiae, but
it successfully persuaded the district court to adopt an
argument that neither party endorsed—one that would
have “long term impact on the State.” Id. at 965–66.
Because neither party pursued Hawaii’s argument on
appeal, however, they had no incentive to press the
issue further when the Court of Appeals eventually
reversed. Id. at 965. That put Hawaii in a bind. As an
amicus, it could not seek rehearing or petition for
certiorari. So it moved to intervene as a party to protect
its interest in a case with significant implications. Id.
The same panel that rejected Hawaii’s argument on
the merits nevertheless allowed the State to intervene

24
so that it could seek further appellate review. The court
did so even though Hawaii’s request to intervene came
late in the proceedings and even though the court found
Hawaii’s explanation for its delay “less than entirely
persuasive.” Id. at 966. All of that, the court explained,
was “outweighed by [its] discomfort” about what would
happen if Hawaii could not intervene: there would be
“no petition for rehearing” and “no opportunity for the
Supreme Court to consider whether to grant certiorari.”
Id. Thus, “even though Hawaii could have and should
have intervened earlier, [the court would] not foreclose
further consideration of an important issue” that would
have a significant impact on a State’s sovereign
interests. Id.
Neither Peruta nor Day gave carte blanche to the
States to sit idly by only to disrupt the orderly judicial
process late in the game. Both decisions balanced the
State’s interest against the potential for prejudice to
the existing parties. But when a State seeks only to
exhaust the existing appellate options available in
defense of its sovereign interests, no prejudice exists.
See Day, 505 F.3d at 965 (finding no prejudice where
“the practical result of [the State’s] intervention—the
filing of a petition for rehearing—would have occurred
whenever the state joined the proceedings”). That’s
because it is not prejudicial to require parties simply to
litigate a case to its ordinary conclusion.
More recently, this Court granted certiorari in a
case in which the Ninth Circuit allowed a State to
intervene after an en banc decision. See Brnovich v.
Democratic Nat’l Comm., No. 19-1257. Brnovich
involves a challenge to a pair of Arizona’s election

25
rules. The Arizona Secretary of State defended its laws
in briefing before the Ninth Circuit, but declined to
continue doing so after the en banc court ruled against
the State. At that point, Arizona’s Attorney General,
who was already a party in the suit, moved to intervene
on behalf of the State of Arizona to ensure that he
could continue defending every aspect of the State’s
interest. Democratic Nat’l Comm. v. Hobbs, Case No.
18-15845, Dkt. 128 (9th Cir. 2020). Just as in this case,
Arizona’s Attorney General only sought to exhaust the
State’s available options for appellate review in light of
the Secretary of State’s about-face. See id. The Ninth
Circuit granted the request, which allowed
Arizona—through its Attorney General—to petition
this Court for certiorari. Id., Dkt. 137. And this Court
granted that petition. No matter the final result from
this Court in Brnovich, the Ninth Circuit’s recognition
of the important interests that States have in
defending their own laws has ensured that Arizona can
do so fully through the end of the appellate process.
C. In breaking with the Ninth Circuit, the panel
gave no hint that it even recognized the unique
interests at stake when a State seeks to intervene in
defense of its own laws. As discussed above, this is a
core part of State sovereignty. But to the panel, the
Attorney General’s request to intervene was no
different than a run-of-the-mill motion filed by a third
party at the last minute of litigation. And so the panel
denied intervention based only on its conclusion that
the Attorney General’s motion was untimely.
In doing so, the panel majority deliberately chose
not to address “the issue of whether Attorney General

26
Cameron has a substantial legal interest in the subject
matter of this case.” App.115 n.4. That is confounding,
considering that the “subject matter of this case,” id.,
is whether the State will be “enjoined by a court from
effectuating statutes enacted by representatives of its
people,” See King, 133 S. Ct. at 3 (Roberts, C.J., in
chambers) (quoting New Motor Vehicle Bd. of Cal., 434
U.S. at 1351) (Rehnquist, J., in chambers)). The panel
did not merely weigh a complex set of factors against
the State in this particular case—it treated the State’s
ability to defend its laws as irrelevant to the inquiry.
And in that way, the panel broke sharply with the
Ninth Circuit.
The panel’s attempt to distinguish Peruta and Day
illustrates this profound error. The court criticized
Attorney General Cameron for waiting too long to
intervene when he allegedly should have known of “his
interest” in the case at an earlier time. App.112. This,
the panel reasoned, was unlike Peruta, in which the
State of California “had no strong incentive to seek
intervention . . . at an earlier stage, for it had little
reason to anticipate either the breadth of the panel’s
holding or the decision of [the defendant] not to seek
panel rehearing or rehearing en banc.” Id. But that, of
course, is exactly the situation the Attorney General
faced here. Until the panel’s decision on the merits, the
Secretary had not only defended HB 454 with vigor—he
had retained the Attorney General to lead the effort at
oral argument before the appeals court. See App.116
(Bush, J., dissenting) (“Contrary to what the majority
holds, the party who seeks to intervene, the Attorney
General of Kentucky, is no Johnny-come-lately. The
Attorney General is the same counsel who represented

27
Secretary Friedlander in this appeal . . . .”). Then, two
days after learning the Secretary would no longer
defend the law through the final stages of appeal, the
Attorney General moved to intervene on behalf of the
Commonwealth.
Yet not even those facts satisfied the panel. In
denying the Attorney General’s motion, the court
surmised that the Attorney General should have
predicted that the Secretary would reverse course and
abandon his defense of HB 454 after the panel’s
decision. App.113 (“As discussed, the Attorney General
could also have anticipated the Secretary’s decision
regarding petitioning for rehearing en banc and
certiorari, given that he himself represented the
Secretary.”). Never mind that the Secretary chose to
continue defending HB 454 with the Attorney General’s
office as his chosen counsel after Kentucky’s new
governor appointed the Secretary. Never mind that the
Attorney General represented to the Sixth Circuit that
the Secretary did not inform him of the decision until
after the panel’s decision. 6thCir.Dkt. 56 at 1. And
never mind that not even ordinary litigants must
predict unknowable future events when weighing
whether to intervene. See McDonald, 432 U.S. at 394
(allowing intervention when a non-party moved
“as soon as it became clear . . . that [her]
interests . . . would no longer be protected”). The
panel’s decision here effectively denied Kentucky an
opportunity to exhaust its appellate remedies in
defense of the constitutionality of state law because the
Attorney General did not foresee that the defendant
representing the State’s interests would no longer do

28
so. Imposing such a burden on a sovereign State is
remarkable.
The panel’s conclusion is only possible because it
ignored the elephant in the room. The issue in this case
is not about the personal interest of the Secretary. Nor
is it about the personal interest of the Attorney
General. Rather, the issue here—and in all cases in
which a State’s laws have been challenged as
unconstitutional—is whether the Commonwealth’s
interest is adequately represented as a sovereign State.
In many respects, it should make no difference to a
federal court what the name of an official-capacity
defendant is when the issue is simply the defense of a
state law’s constitutionality. See Bethune-Hill, 139 S.
Ct. at 1951. So long as the State has authorized the
party to defend its interests in court, what reason does
a federal court have to focus on the identity of the
official party who represents the State and its interests
in this kind of litigation? Yet the panel majority treated
the Attorney General’s request as some kind of lastminute gamesmanship, ignoring the sovereign interest
that the Attorney General represents in merely
attempting to ensure continuity in defense of the
Commonwealth’s duly enacted laws.
The Ninth Circuit has recognized this distinction,
which is why it allowed Hawaii to intervene in Day late
in the proceedings even though Hawaii had no good
explanation for failing to do so earlier. See Day, 505
F.3d at 966. Here, of course, the Attorney General had
plenty of good reasons for not intervening earlier: The
Secretary fully represented the Commonwealth’s
interest in defending HB 454 through trial and up until

29
the point when he decided not to seek rehearing or
petition this Court for certiorari.
Nor did the Attorney General sit idly by. His office
represented the Secretary as counsel of record on
appeal, fulfilling his duty under Kentucky law to
ensure that the Commonwealth’s sovereign interest
had a voice in court. Then, shortly after learning that
the Secretary would no longer defend against the
constitutional challenge, the Attorney General moved
to intervene, asking the court below to effectively
substitute one official-capacity party for another to “fill
the void created by the late and unexpected departure”
of the Secretary “from the litigation.” See Peruta, 824
F.3d at 941. The Attorney General’s motion came “as
soon as it became clear . . . that the interests of
[Kentucky] would no longer be protected by [the
Secretary].” See McDonald, 432 U.S. at 394. And the
Attorney General tendered his petition for rehearing on
the day that the Secretary’s petition would have been
due, ensuring that his request to “stand in for the
State” would not result in even one day of delay. See
Bethune-Hill, 139 S. Ct. At 1951. That should have
been enough.
The panel’s approach to this problem is not simply
a difference of degree from the Ninth Circuit in
weighing the facts of a particular case. As the Ninth
Circuit has recognized, even where the ordinary factors
weigh against intervention, the court will “not foreclose
further consideration of an important issue” to the
State’s sovereign interests. Day, 505 F.3d at 966. The
Sixth Circuit split from the Ninth Circuit below by
failing to recognize this unique factor when a State

30
moves to intervene in defense of its own laws. As the
panel majority saw it, such interests were irrelevant.
See App.115 n.4.
D. Adding to the confusion, the panel majority’s
decision “flies in the face of [Sixth Circuit] precedent
allowing states’ attorneys general to intervene on
appeal in order to defend their states’ laws.” App.116
(Bush, J., dissenting). In Associated Builders &
Contractors, Saginaw Valley Area Chapter v. Perry, 115
F.3d 386 (6th Cir. 1997), the court allowed Michigan’s
Attorney General to intervene following a final
judgment in the district court after learning that the
state official who previously defended the state’s law
would not seek appellate review. Id. at 389–91.
Likewise, in City of Pontiac Retired Employees
Association v. Schimmel, 751 F.3d 427 (6th Cir. 2014)
(per curiam) (en banc), the Sixth Circuit allowed the
Michigan Attorney General to intervene “on behalf of
the State of Michigan,” id. at 430, even though the
motion was made after oral argument, see City of
Pontiac Retired Emps. Ass’n v. Schimmel, 726 F.3d 767,
773 (6th Cir. 2013). In fact, the panel majority in
Schimmel first denied the Michigan Attorney General’s
request (over a dissent) before the en banc Court
overruled that decision. See id.; see also N.E. Ohio
Coal. for Homeless & Serv. Emps. Int’l Union, Local
1199 v. Blackwell, 467 F.3d 999, 1002, 1007–09 (6th
Cir. 2006) (granting the Ohio Attorney General’s
motion to intervene “to represent the interests of the
people of Ohio and the General Assembly in defending
the constitutionality of [a] statute”).

31
Inexplicably, just a few months ago, a different
panel of the Sixth Circuit granted Attorney General
Cameron’s motion to intervene into a challenge to
another of Kentucky’s abortion laws almost one year
after the court heard oral arguments in the matter.
See Friedlander, 2020 WL 6111008, at *5. The
Commonwealth thus can defend its sovereign interests
with respect to that particular law, should further
appellate review be necessary, but cannot do so here.
The lack of guidance from this Court has caused not
only a split among the circuits, but an intra-circuit
conflict as well.3

3

Nor should this Court take comfort in the Sixth Circuit’s ability
to sort out its own disagreements and align itself with the Ninth.
Attorney General Cameron was not even permitted to seek
rehearing en banc as to the panel’s decision denying intervention
in this case. App.131.

32
CONCLUSION
The Court should grant the petition, allow the
Attorney General to intervene, and vacate the
judgment below and remand for further consideration
in light of June Medical.
Respectfully submitted,
BARRY L. DUNN
Counsel of Record
Deputy Attorney General
VICTOR B. MADDOX
Assistant Deputy Attorney General
CARMINE G. IACCARINO
Assistant Attorney General
Office of the Kentucky
Attorney General
700 Capitol Ave., Suite 118
Frankfort, KY 40601
(502) 696-5300
Barry.Dunn@ky.gov
Counsel for Petitioner

